<html>
<title> - Trafficked: Untangling the Bonds of Modern Slavery</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


115th Congress }                            Printed for the use of the                       
                        
 1st Session   }     Commission on Security and Cooperation in Europe
                                             
======================================================================

	                    Trafficked: Untangling the
	                      Bonds of Modern Slavery
                        

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




                         October 13, 2017

                           Briefing of the
          Commission on Security and Cooperation in Europe
------------------------------------------------------------------------
                         Washington: 2017




          Commission on Security and Cooperation in Europe
                       234 Ford House Office Building                                               
                            Washington, DC 20515
                                 202-225-1901
                             <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bcdfcfdfd9fcd1ddd5d092d4d3c9cfd992dbd3ca">[email&#160;protected]</a>
                             http://www.csce.gov
                               @HelsinkiComm

                                                   
                                                          

                      Legislative Branch Commissioners
                      
                      
                      
      HOUSE				SENATE
CHRISTOPHER H. SMITH, New Jersey 	ROGER WICKER, Mississippi,
          Co-Chairman			  Chairman
ALCEE L. HASTINGS, Florida		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina		JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois		THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas		TOM UDALL, New Mexico
GWEN MOORE, Wisconsin			 SHELDON WHITEHOUSE, Rhode Island
                                         
             

                      Executive Branch Commissioners

                            DEPARTMENT OF STATE
                            DEPARTMENT OF DEFENSE
                            DEPARTMENT OF COMMERCE
                                      [II]


ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE



    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.

                                 [III]



                         Trafficked:  Untangling the

                           Bonds of Modern Slavery


                               October 13, 2017
                               
                               


                                                                        Page
                              PARTICIPANTS

    Stacy L. Hope, Communications Director, Commission on Security and 
Cooperation in Europe                                                     1

    Allison B. Hollabaugh, Counsel, Commission on Security and 
Cooperation in Europe                                                     2

    Siddharth Kara, Producer of Trafficked, Director of the Program on 
Human Trafficking and Modern Slavery at the Kennedy School of 
Government at Harvard University, and Visiting Scientist on Forced 
Labor at the Harvard School of Public Health                              3

    Marcia Eugenio, Director, Office of Child Labor, Forced Labor and 
Human Trafficking at the Bureau of International Labor Affairs, U.S. 
Department of Labor                                                       4

    Alex Trouteaud, Ph.D., Director of Policy and Research, Demand 
Abolition                                                                 7

                                [IV]




 
                         Trafficked: Untangling the
                          Bonds of Modern Slavery
                          
                              ----------                              

                            October 13, 2017

            Commission on Security and Cooperation in Europe                                                            
                           Washington, DC 20515


    The briefing was held at 2:40 p.m. in Room 2168, Rayburn House 
Office Building, Washington, DC, Allison B. Hollabaugh, Counsel, 
Commission on Security and Cooperation in Europe, moderating.
    Panelists present: Stacy L. Hope, Communications Director, 
Commission on Security and Cooperation in Europe; Allison B. 
Hollabaugh, Counsel, Commission on Security and Cooperation in Europe; 
Siddharth Kara, Producer of Trafficked, Director of the Program on 
Human Trafficking and Modern Slavery at the Kennedy School of 
Government at Harvard University, and Visiting Scientist on Forced 
Labor at the Harvard School of Public Health; Marcia Eugenio, Director, 
Office of Child Labor, Forced Labor and Human Trafficking at the Bureau 
of International Labor Affairs, U.S. Department of Labor; and Alex 
Trouteaud, Ph.D., Director of Policy and Research, Demand Abolition.

    Ms. Hope. Good afternoon, everybody. My name is Stacy Hope. I am 
the communications director of the U.S. Helsinki Commission. On behalf 
of our Chairman, Senator Roger Wicker, and our Co-Chairman, 
Representative Chris Smith, I am pleased to welcome you to today's 
screening of Trafficked.
    Human trafficking remains an entrenched, but not an intractable, 
problem in the United States and around the world. According to the 
International Labour Organization, 40 million people suffered from 
human trafficking last year; most of these were women and girls.
    Since the 1990s, members of the Helsinki Commission--especially our 
Co-Chairman, Representative Chris Smith--have been very active in 
combating human trafficking. Co-Chairman Smith has chaired numerous 
hearings on the subject and is the prime sponsor of four major laws and 
several international resolutions aimed at combating human trafficking 
both in the United States and around the world. Since 2004, he has 
served as special representative on human trafficking issues to the 
president of the OSCE Parliamentary Assembly.
    Trafficked, the film we'll see today, is a drama based on Siddharth 
Kara's award-winning book that follows the stories of three girls from 
Nigeria, America and India as they lose and reclaim their freedom. 
Following the screening, I invite you to join us for a panel discussion 
with Mr. Kara, as well as Ms. Marcia Eugenio of the Office of Child 
Labor of the U.S. Department of Labor, and Dr. Alex Trouteaud, director 
of policy at Demand Abolition. During our panel, we will be discussing 
the root causes of vulnerability to trafficking, the role of the buyer 
in trafficking, police corruption and accountability, the psychological 
effects of trafficking on survivors, the road to recovery, and what 
Congress can do about all of this.
    The panel discussion will be streamed live on the Helsinki 
Commission Facebook page at www.facebook.com/HelsinkiCommission. That 
video as well as an unofficial transcript will be available on our 
website, www.csce.gov, early next week.
    Thank you for joining us today. Now I'd like to hand the floor over 
to Mr. Kara to do some introduction of the film.
    Dr. Kara. Hi, everyone. I will be brief. I just wanted to first 
thank the Helsinki Commission for hosting this event. I am very 
grateful for the opportunity to share the film with you this afternoon.
    The film had its world premiere just eight days ago at the United 
Nations in New York. We had a very large gathering in the ECOSOC 
Chamber, several hundred dignitaries, ambassadors turned out to see the 
film. And then it was released in theaters--a limited release--the 
following day, last week in a handful of cities across the country.
    As Stacy mentioned, I wrote this film, I produced it, based on and 
inspired by my first book, ``Sex Trafficking: Inside the Business of 
Modern Slavery.'' My goal in doing so was to do a few things: First, to 
try to tell a global and authentic story about human trafficking. 
Second, to give voice to some of the voiceless survivors in this world. 
Most of the characters in this film are documented, are based on 
someone I actually documented, though, of course, fictionalized in 
order to tell a film story. And then finally, and this is the most 
delicate and I think the most crucial element, to shake people out of 
their apathy just a little bit on this issue and to give just a hint as 
to exactly how destructive the journey of human trafficking can be, and 
is.
    Needless to say, no one wants to see the true horrors of that 
journey, of just how horrible it can be. But I also feel we can't 
sanitize just how horrible it can be. And so one of the most 
challenging aspects of writing this film and then being on set and 
producing it was to find that balance. And I think it will be up to you 
in the audience to decide whether we did find that balance. But if 
anything, I wanted to err a little bit towards shaking people up.
    Now, you all know, by and large, what this issue is, what it's 
about, so much of this may not be new to you. Some of it may be. 
Certainly, for a mass audience, for the general audience, I think most 
of what happens in this film is going to be quite new, including the 
fact that these things take place here in this country.
    That said, I shall thank you for being here. I will look forward to 
having the panel discussion and hearing your response.
    Thank you.
    [The film Trafficked is shown.]
    Ms. Hollabaugh. Thank you for joining us this afternoon for the 
screening in Washington, D.C. of Trafficked, the new movie by Siddharth 
Kara.
    I'd like to invite the producer to come up and our panelists, 
Marcia, Alex, please join me as we turn now to a discussion of the 
major themes of this movie.
    There are tissues in the back if anybody needs them. [Laughter.]
    And I look forward to hearing your thoughts after a few from our 
panelists.
    I'd like to introduce Siddharth Kara. He is one of the world's 
foremost experts on human trafficking and contemporary slavery. He is 
the director of the Program on Human Trafficking and Modern Slavery at 
the Harvard Kennedy School of Government, where he is also an adjunct 
lecturer and teaches the only course on human trafficking at the 
Harvard Kennedy School of Government. In addition, Kara is a visiting 
scientist on forced labor at the Harvard School of Public Health.
    He is the author of ``Sex Trafficking: Inside the Business of 
Modern Slavery,'' co-winner of the prestigious 2010 Frederick Douglass 
Award at Yale University for the best nonfiction book on slavery.
    And I would add that this is a very exciting time to be talking 
about trafficking in the U.S. Congress. It is a reauthorization year 
for the Trafficking Victims Protection Act of 2000. Every three to five 
years, the U.S. Congress reauthorizes this bill that established our 
antitrafficking framework in the U.S. and directs $130 million a year 
towards antitrafficking efforts in the Department of Justice, 
Department of State, Department of Homeland Security, Department of 
Labor and Department of Health and Human Services, just to name a few.
    But before we turn to U.S. policy, I would like to hear more from 
Dr. Kara on his film.
    Dr. Kara. Thank you, Allison, for that very warm introduction. 
Thank you all for being here again, and thank you to the Helsinki 
Commission for hosting this screening.
    I warned you I wanted to shake you up a little bit. And I hope you 
have been shaken up, but in a productive way. The goal of this film is 
to raise awareness, awareness of the truths of how destructive the 
journey of human trafficking can be, of how global it is, of how 
interwoven it is, of how close to home it is, whether your home is the 
United States or Nigeria or India or Mexico or Moldova, or any of the 
countries in between those.
    And above all, the goal of this film is to try to give some voice, 
some stirring voice to the millions of voiceless victims and survivors 
of human trafficking around the world. And when I say voiceless, I 
really want the one focus on that word, what it means to have no voice. 
It means no matter how loud you scream, no one is listening. That's 
what it means to have no voice. Documentary films, books, this film and 
other great films that have been made on this issue all endeavor, I 
believe, to lend an ear to those screams that are resonating around the 
world with too few people listening.
    Allison mentioned this is an important year. It is a policy year 
here, a reauthorization year. This film does evoke many, I believe, of 
the very crucial issues being discussed and debated in terms of the 
Frederick Douglass Reauthorization Act and we'll talk about that, I 
believe, a little bit this afternoon.
    So the purpose of the film is also to engage policymakers in the 
kinds of conversations they're having and to remind them that as much 
as we may talk about policy and talk about laws and talk about steps 
that need to be taken, what should never be lost in those conversations 
is the human element to all of this. And if this film accomplishes 
nothing else other than to be a vehicle through which people in very 
important positions who have an impact on this issue can be reminded of 
the human element, very forcefully reminded of the human element, then 
I think it will have achieved its goal, at least insofar as I am 
concerned.
    I don't want to take up more time. I did speak a little earlier. I 
would like to pass it off to Allison to introduce the other panelists. 
And I really look forward to the discussion afterwards.
    Ms. Hollabaugh. Thank you, Professor Kara. We are unforgettably 
reminded of the human element. The movie is riveting.
    Our next speaker is Marcia Eugenio. Marcia is the director of 
Office of Child Labor, Forced Labor and Human Trafficking in the Bureau 
of International Labor Affairs. Under Ms. Eugenio's leadership, the 
Bureau of International Labor Affairs and the other offices have 
promoted the elimination of child labor and forced labor through 
policy, research, technical assistance projects and many other 
activities that have provided millions of children with the education 
and training that their families need to have viable livelihood 
opportunities and increase the capacity of governments to address 
vulnerability issues.
    Ms. Eugenio.
    Ms. Eugenio. Good afternoon, everyone. I'm really honored to be 
here today and to have the opportunity to engage in this very important 
discussion.
    I want to thank the Helsinki Commission as well as Allison and 
Stacy for hosting this event today.
    And I also want to thank once again our friend Siddharth Kara for 
producing this film, for engaging in this issue, for being a voice for 
the voiceless.
    And as he said, I will try to keep my remarks fairly short, because 
I think it would be really good to engage in a conversation about some 
of these issues.
    I wanted to give you a little bit of my impressions about this 
movie and the importance of this type of film being produced and being 
shared with all of us. To be honest--and I shared this with Allison 
earlier--I'm a mother of two young girls, and it was really hard for me 
to watch this film. And I was fortunate enough to be able to watch the 
film at the United Nations last week at the premiere of the movie. I 
had very strong reactions to the film. I had an emotional reaction and 
a physical reaction to it, because it was hard to see the exploitation 
of these young girls. And it was hard to see the fact that no matter 
how loud they screamed, they were not being heard.
    And I actually think that it is important to feel uncomfortable 
when you're watching this movie. I think it is important because it 
reminds us that there are people out there who need our support and our 
thinking and our policy engagement. And all of us want to be a part of 
the solution.
    Again, Siddharth has spent a lot of time working on this issue, 
both as a filmmaker, but also as a researcher. And his research has 
been giving us the opportunity to really, truly engage.
    I wanted briefly just to mention a couple of things related to the 
new global estimates on forced labor, modern slavery, and child labor, 
to tell you a little bit about the work that we do in the Bureau of 
International Labor Affairs at the Department of Labor, and also to 
give you some concrete actions that we think could be taken to address 
the problem.
    Many of you may know that the International Labour Organization and 
the Walk Free Foundation released new estimates of forced labor last 
month and also of child labor. There are about 25 million people 
trapped in forced labor, 20 million of which are in forced labor 
exploitation, and 5 million are estimated to be in sexual exploitation. 
Of the 5 million in sexual exploitation, 1 million are young girls. 
That's more than the population of Washington, D.C. That, to me, is a 
striking number right there. And as good as these estimates are, I 
believe that they are just the tip of the iceberg. It is very difficult 
to actually quantify and measure trafficking and sexual exploitation.
    I also wanted to talk a little bit about Enrique, who I think you 
all saw in the movie, because there were clear victims or survivors of 
trafficking, and there were clear people who were perpetrators of a 
crime. And Enrique, to me, fell in between. I thought a lot about his 
situation because he is one of those victims of forced labor that was 
in the situation because he was being coerced--because his family was 
actually being threatened. And even though he seemed to be sympathetic 
to the struggle and the violence and the exploitation, he felt that he 
was powerless to help.
    About 20 million people find themselves in a similar situation. 
They're people who are working in construction, working in 
manufacturing, working in agriculture, people who are working in 
service industries. And I think it's also important for us to remember 
those victims. I think that it is important to look at commercial 
sexual exploitation and trafficking, but also to look at all the 
victims of labor exploitation that end up in forced labor, because 
those could be the potential future victims of trafficking in 
commercial sexual exploitation.
    As I mentioned, the international organization also released 
numbers on child labor worldwide. And while there is a good story to 
tell there--there has been a reduction of about 94 million children 
since back in 2000 when estimates started to be collected--there are 
also 152 million children around the world who are victims of child 
labor exploitation. And many of those potentially could end up as 
victims of trafficking or commercial sexual exploitation.
    Another thing that the movie highlighted for me was the importance 
of the different types of stakeholders and the different types of 
organizations that need to be part of the solution--and that involves 
government officials, it involves civil society organizations, 
academics, filmmakers, and all of us who are here today.
    The movie highlighted for me, and the global estimates, that 
trafficking, forced labor, modern slavery, whatever term you want to 
use, is big business and is underpinned by crime, by corruption, and, 
in some cases, by good people turning a blind eye to the exploitation 
of others, which, again, I believe and I think you all share with me, 
that we should and we could all do more to help.
    Just briefly in terms of what the Department of Labor does--how we 
engage in this issue--I am very fortunate to have been directing the 
work of the Department of Labor on international child labor, forced 
labor, and human trafficking for the last almost 20 years. During that 
period of time, we have worked in about 90 countries. Back in 1995 we 
held a symposium here in Washington on commercial sexual exploitation, 
forced prostitution of children.
    We also in 1997 funded one of the first United States Government 
programs in Thailand to address the commercial sexual exploitation of 
children. And that project is important to me, not only because it was 
one of the first ones that we funded out there, but because there was a 
very good lesson learned coming out of there. Some of the girls that we 
were able to rescue from commercial sexual exploitation became social 
workers and were able to go back into their communities and provide 
assistance to others. That's one of our proud moments that I can speak 
about.
    We also produce reports and research on international child labor, 
forced labor, and human trafficking issues. Last month we released an 
update to our annual report on child labor. This report covers about 
130 countries and it's the most comprehensive research product out 
there on international child labor issues. So if you want to know more 
about the issues of child labor, that's a good resource for you.
    We also produce several apps. You know, we all are in the business 
of using technology to advance and communicate. We have one app that 
includes information on child labor and another one that provides a 
resource to businesses to address child labor and forced labor in the 
global supply chain. I think, again, Siddharth has done some work on 
global supply chains and especially in the carpet industry of India. 
And I think that these are really good resources, these apps, and I am 
going to do a shameless plug for them. So please download the Sweat & 
Toil app and the Comply Chain app. They will be good resources for you.
    Also this year, another tool that we'll be using to help address 
the issues of child labor and forced labor is our funding of about $47 
million in grants to address exploitation in fishing, in coffee global 
supply chains, and also the trafficking of people for forced labor.
    Let me conclude by saying that I feel that none of us are alone in 
the fight, and that each one of us can play a role. And that may be 
coming on a Friday afternoon and watching a very emotional, touching 
movie, a very hard-to-watch movie--for me, doing this is already one 
step forward in this. And you talking to your colleagues, talking to 
your family members and talking to others about how you can do 
something about this issue is already a step in the right direction.
    And as a mother, again, and as someone who has worked for a very 
long time on this issue, I hope that 5 years from now, 10 years from 
now, it will not be necessary for us to watch a movie like this in 
order to remind us that we should be doing more about this issue.
    Thank you.
    Ms. Hollabaugh. Thank you, Ms. Eugenio, for reminding us of 
Enrique, the forgotten trafficking victim, perhaps, in the movie, as 
well as underscoring the importance of the Sweat & Toil app and the 
forced and child labor report.
    These reports--I can't underscore enough the importance of them. 
They inform Customs and Border Patrol what goods they need to block 
from coming into the United States. This takes profits away from 
traffickers. This is an extremely important report that's put out by 
Ms. Eugenio's office.
    And the Sweat & Toil app as well, this can be used by both 
consumers and by corporations and any private entity that wants to have 
a clean supply or a consumer who wants to buy clothing that's not made 
with human trafficking. The Sweat & Toil app will help you and 
companies identify where products are probably tainted with child or 
other forms of trafficking.
    Our next speaker is Dr. Alex Trouteaud. Alex is an applied 
sociologist and public policy expert who has studied trafficking and 
prostitution in the United States for over 10 years. He focuses on 
bringing the best available research insights into critical 
conversations around trafficking policy and social change. As a 
specialist in perpetrator accountability, Alex works to address gaps in 
how we understand and respond effectively to exploitation caused by 
illegal sex-buying behavior and networks.
    Prior to joining Demand Abolition in D.C., Alex led youthSpark, a 
victims' service and advocacy nonprofit in Atlanta, Georgia.
    Dr. Trouteaud, we're very interested in your thoughts on the movie.
    Dr. Trouteaud. Well, thank you.
    Before I say my very brief remarks, because I am conscious of the 
fact that it is Friday afternoon and the Nats lost in the worst kind of 
way last night--how many of you all stayed up for all of that game? 
Yeah. Whew, all right, we're past that now, though.
    But first, before I make some remarks, I feel like we're missing 
something, which is to give a round of applause to Siddharth for making 
such an amazing film. [Applause.] Perhaps your strategy of stunning us 
worked a little too well, stunned us into forgetting to clap.
    But it is a very emotionally moving film because it's an 
emotionally moving issue, and I'm not going to belabor that point. The 
thing I'm going to focus on today is why you are all here. I mean, not 
why you're in here in this briefing room right now, but why you're 
here. Right? You obviously want to do something good for the world, you 
want to come in and make a change, you want to be part of our national 
conversation about how we make this world a better place, a safer 
place, a fairer place.
    So let's talk a little bit about how we understand the issue of sex 
trafficking specifically in a policy framework and what we can be doing 
about that, what we should be paying attention to. And there's a lot to 
unpack in the film. I mean, there's some really wonderful observations 
in there that you could take away about the role that bystanders had or 
could have had in reducing harms to these folks.
    But let's bring it back up to the sort of dorky D.C. level here and 
talk about policy instead. I want to give you a framework for thinking 
about how we do policy on trafficking. And let's understand it as an 
economic crime, an economic crime that has a very severe toll on 
people's lives, but an economic crime nonetheless.
    And so we've got supply, right, we've got the victims. We've got 
market facilitation, pimping trafficking, right? Those are the folks 
that are connecting supply to demand, absolutely. And so the demand in 
this issue are the sex buyers. Some of them were, like, super creepy. 
I'm not sure what casting criteria you used for that--[laughter]--but 
it gives me the heebie-jeebies just thinking about it.
    You know, the reason why at Demand Abolition we focus on sex buyers 
is because of exactly what you saw in the film. This is an issue where 
vulnerable people are used as supply to meet the demands of 
perpetrators. So to the extent that we want to reduce victimization, we 
have to be thinking about the issue in a totally different way, right?
    In fact, it's really easy to think about sex trafficking as an 
issue of victimization, but I would like to challenge you to instead 
think of it as an act of perpetration. In fact, really any time when 
we're dealing with interpersonal assault, sexual assault in particular, 
you don't need me to tell you, but I'll do it anyway--victimization 
always happens as a cause of perpetration. Let's talk a little bit 
about what that perpetration looks like. You have sex buyers and then 
you have also in this case exploiters, people who are taking advantage 
of vulnerable individuals; and their vulnerabilities are complex and 
they are based on what happens here in the United States and based on 
what's happening in other countries, which means we have a role as 
global citizens in addressing those vulnerabilities.
    But fundamentally, we have to be thinking about what is driving 
those perpetrators and what would stop them. And I think a lot of 
people take a really cynical view about sex buyers--that, oh, this is 
something that we can't solve, this is something we can't address. We 
actually already are. You hear a lot about how the trafficking trade is 
growing, and that may all be true, but if we actually look long term at 
sex-buying behavior in the United States, it may surprise you, but 
we're actually seeing less and less sex buying over time. There are 
more men who bought sex a generation ago than who do today, which means 
there can be even fewer in the next generation. The question is, what 
can we do to hasten that decline?
    We've got to be thinking about how we as a society organize our 
policy and our resources in order to reduce demand. There's a lot of 
ways that we can do that. And if you want to talk about some of those 
detailed ones after the panel discussion, I'm happy to do that.
     I do want to talk a little bit about what makes for a great policy 
in human trafficking. A great policy, in my view at least, is one that 
is tackling all dimensions of trafficking at the same time. It's 
addressing vulnerabilities of individuals. It's addressing victims' 
services, which you don't even see that in the movie, but those 
individuals who have been victimized by the sex trade have years and 
years of services ahead of them to bring them back to a place where 
they can function stably in society. It's expensive and it's difficult 
to deliver, but that's really, really important to make sure that those 
victim services are in place, so that's one.
    And then two is making sure that we're keeping traffickers and 
other exploiters, those intermediaries, those market facilitators, that 
we make it as hard for them to do business as possible, make it as 
risky for them to do business as possible, because they're in it for 
business.
    And then third, we have to do everything we can to reduce demand 
for paid sex in this country because that's where sex trafficking 
flourishes. So, to the extent we can do all three of those at the same 
time, that's a huge win. And, as Allison mentioned, we actually have an 
opportunity right now to do that--the Trafficking Victims Protection 
Act, the TVPA. I think one of the agents said it in a really great way 
on the jet as he's arresting the guy, right? That was good. [Laughter.]
    But TVPA is the marquee legislation in the United States for 
addressing human trafficking of all forms and sex trafficking 
specifically, both domestically and globally. This law has come a long 
way over the years and it is absolutely mission critical that we 
reauthorize it, because it provides for victim services. The services 
that those young women are going to rely on for years to come in large 
part get funded through the reauthorization of TVPA. It relies on the 
steep penalties and law enforcement resources dedicated to get 
traffickers and third-party exploiters. And now it's also starting to 
get great new provisions that help us reduce demand, both from a 
criminal justice standpoint and also seen from a public health 
standpoint as well, too. We're making great progress, but that 
reauthorization needs to happen.
    And because we don't want anything to be super easy in D.C., we 
have, I think by my latest count, five bills ?
    Ms. Hollabaugh. Four. It's four, cutting down to four.
    Dr. Trouteaud. We have--wink, wink--four bills that reauthorize 
TVPA right now that have passed one chamber. Whew. So there's a lot of 
work to do, but absolutely there is consensus within Congress on most 
of what's going on there--we just need to get everyone to the table to 
get it all settled out and then Allison can take a vacation.
    Then the other one that I'd really like to bring your attention 
to--some bills cover a wide territory and those are fantastic, high-
priority bills, and then other bills take a narrower approach and they 
try to expand our federal response to trafficking or sometimes our 
state response to sex trafficking. And right now, a really big one 
that's also pretty contentious, that I really encourage you to read up 
on, is reform efforts for the Communications Decency Act. What those 
reform efforts are intending to do is to unleash state resources to 
hold websites accountable when those website operators knowingly 
participate as sex traffickers.
    Again, it is a complicated issue. I really encourage you to read up 
on all sides of it. But that's a great example of how we have to, as 
the market adapts, challenge ourselves about who is involved in the 
different parts of the crime of sex trafficking and how we most 
reasonably hold all of them responsible so that we can see this become 
rarer and rarer and rarer.
    So happy to talk in more detail with any folks later if you want to 
get more involved in some of these bills.
    Thank you again, Siddharth, for making a fantastic film; Allison, 
for hosting; and all of you for being here on a Friday afternoon. Thank 
you. [Applause.]
    Ms. Hollabaugh. Thank you, Dr. Trouteaud.
    Depending on the count, there could be one that can be considered a 
companion bill that could be considered a fifth. [Laughter.] But the 
good news is that everybody is together at the table and the bills are 
highly compatible. Each one approaches the problem a little bit 
differently with a little bit different emphases, and together they 
will make an excellent reauthorization package. We're in the final 
stages of that now.
    So we have many questions for the panelists. If there's not a 
burning question from the audience at the moment, I have--yes?
    Questioner. I just wanted to ask Mr. Trouteaud about the source of 
the statistics. It sounds--I mean, obviously, the problem is horrific, 
but if it's reducing then obviously we're doing something right. It 
would be good to know the sources.
    Dr. Trouteaud. Looking longer term in the United States, the 
University of Chicago has had a survey project called the General 
Social Survey, and they've asked about involvement in the prostitution 
industry for many years now. And that's where we see a pretty steady 
decline. It's still a significant problem. I think we're talking about 
a multi-billion-dollar industry in the United States--we're talking 
hundreds of thousands, at least, men who are buying sex, so it's still 
a very significant problem. Probably about 6 percent of U.S. men who 
have bought sex within the last year, so that's still a sizeable 
problem. But it's on the decline, and I take that as a sign of hope 
that we can keep pushing that down further.
    Questioner. Thank you.
    Questioner. Hello, Mr. Kara. I'm from Hank Johnson's office and 
we're representing Georgia.
    In the film, I saw Ashley Judd who was portraying the bad guy, or 
the bad woman. And it's interesting because in the news right now, with 
Harvey Weinstein with the abuse of power, and I believe that Ashley 
Judd was one of the first ones who kind of came out, and we have so 
many celebrities--it doesn't have to be a celebrity--just so many women 
speaking out, and it has gained significant traction. And Harvey 
Weinstein now is not just portrayed as a bad guy, but a lot of people 
are speaking out against abuse of power.
    I was just wondering, in terms of this particular topic, I know 
that we're talking on a more policy-focused issue right now, but is 
there something that can be done, for example, just like how Harvey 
Weinstein's case is unfolding, that if more people speak out, the 
trafficking can be reduced? I wanted your opinion on that.
    Dr. Trouteaud. I think you asked and answered the question 
beautifully: When more people speak out, when more people stand up and 
say this is not acceptable--a substantial number of men know other men 
who buy sex. How often do they talk about that? A substantial number of 
women know men who buy sex, and we don't talk about it. For the longest 
time, we wouldn't even arrest men who bought sex. Instead, we would 
just arrest people who we identified as prostitutes, many of whom had 
stories a lot like what you saw in the movie here today. So we're 
changing how we think about the issue, we're changing expectations for 
speaking out, and the more the rest of us can stand up as allies when 
someone is brave enough to speak out, the more we encourage that kind 
of accountability, which ultimately changes norms. That's my take on 
it, at least.
    Ms. Hollabaugh. So, on that note, in many OSCE-participating 
States, the percentage of buyers of commercial sex in the population 
can be as high as 40 percent, which is a shocking number. And those are 
in cultures where purchase of commercial sex is widely accepted.
    Another trend that we're seeing in the OSCE-participating States is 
huge numbers of migrants coming from Nigeria, Cote d'Ivoire, Ghana, and 
other African countries, who have been bound by juju to their 
traffickers and feel like they must participate in sex trafficking in 
the OSCE-participating States because of being bound by juju. We saw an 
example of this in the movie.
    I want to ask Professor Kara if you could explain a little bit more 
about the psychological coercion and how it can be remedied. And 
interestingly, the woman bound by juju was the one that didn't escape 
in the movie.
    Dr. Kara. Yes, this is a very interesting question, and I write 
about it extensively. I just published my third book called ``Modern 
Slavery: A Global Perspective,'' and I go chapter by chapter through 
all the key manifestations of slavery in the world today using case 
studies. And my case study on sex trafficking is the story of Nigeria. 
I spent a month there. And the focus of that research was trying to 
understand some of these cultural practices that I first encountered 
with Nigerian sex-trafficking victims across Western Europe who were 
terrified--terrified of cooperating with the police, terrified of 
testifying, terrified of not discharging these immense debts they had. 
And they had the largest debts, upwards of 40,000 to 50,000 euros, of 
any sex-trafficking victims I had ever encountered.
    And they lived in such terrifying and palpable fear of a curse, a 
curse because a priest back in Nigeria had taken control over their 
womb, anything that had or might come from it one day. So I went to 
Nigeria to try to understand these practices. I spoke to several of the 
women there, and I even met a few juju priests. And you don't need 
chains, you don't even need physical threats or verbal threats when 
you've got something so much more powerful, which is a person's core 
belief.
    And you couldn't rationalize it away. There is no explaining to a 
16-year-old Nigerian girl who has given an oath that's part of her 
practice, and gone through these very intense rituals that involve 
hallucinogens and alcohol and drugs, that actually, no, the priest 
doesn't control, and he can't curse you. Because at that shrine where 
she went and had the ritual performed, there are actually witch 
children running around hissing because they were born from a woman who 
broke her oath and had been cursed. It's so powerful.
    And as I stepped into some of these shrines and some of these 
places, as rational and educated as I am, and I'm not even from that 
culture, I started to wonder, just what are the rules here? And when 
that happened to me, the penny dropped and I understood, retroactively, 
all those petrified, shivering Nigerian sex-trafficking victims I had 
met across Europe, across Asia, even in this country, who lived in fear 
of this oath, and that you will arrest them and deport them and send 
them back to Nigeria. And they'll walk for six months if that's what it 
takes to get back to their madam to pay off that debt because the 
consequences are so much more severe.
    So this speaks to the power of culture, the power of certain 
matters relating to gender, the power of belief, but also the power of 
education and how important it is, especially in the developing world, 
and even in this country, to make sure young girls in particular get an 
education and have some capacity to earn a living other than having to 
take the desperate offer for distressed migration.
    As Mali said, ``I couldn't save my child unless I left my child.'' 
And that's the reality that was spoken to me by so many of the women in 
Nigeria and the things they put themselves through and the things many 
young women put themselves through, because the alternative to this 
doomsday journey with the trafficker--even when they know where it's 
headed--the alternative they face that moment in front of them, a 
starving child or a broken family or war or whatever, is so much more 
palpably worse.
    Anyway, I spend a whole chapter talking about this in my book, and 
I could spend the rest of tonight doing so and just barely get started. 
But it is the most powerful hold over a young woman victim of sex 
trafficking that I've encountered anywhere in the world, and I've done 
this research in more than 50 countries. And this was everything I 
knew, I thought I knew, about human trafficking put on steroids and 
taken to an extreme. And few people know about these practices and 
understand them. So part of the character of Mali is to get that 
narrative and that story out.
    Ms. Hollabaugh. Thank you for explaining in more detail the bonds 
that hold some of these girls, the psychological coercion. These are 
the type of bonds that law enforcement really need to be trained in 
because they're not as obvious. To many law enforcement, she may appear 
to be a willing prostituted woman as opposed to an unwilling one, when 
in fact there's a much deeper story there.
    This topic also came up at the Alliance Against Human Trafficking 
Conference in the OSCE earlier this year. And I believe it was Kevin 
Hyland, who leads the fight against trafficking in the United Kingdom, 
who said that he had begun to try and work directly with juju priests 
in Nigeria and tell them this is what's going to happen to these girls 
when they leave your country, do not be a part of this, do not do these 
curses. And he has also looked into having juju priests in the U.K. 
have ceremonies that undo the curse and so the girls feel 
psychologically free from the curse. Whether or not that prevents the 
traffickers from taking retaliatory measures against their families in 
their home country is a whole other issue. That's more of a visa 
discussion. But there are some innovative ways being applied to address 
this very, very difficult psychological coercion problem.
    Are there any other questions from the audience?
    Yes?
    Questioner. Thank you, Professor Kara, for bringing your film to 
D.C. And thank you all for being here and sharing your afternoon with 
us and your thoughts.
    My question is maybe for Dr. Trouteaud. Just last week here in 
D.C., Councilmember Grosso introduced a new resolution to decriminalize 
sex work in D.C. I'm curious what the latest research shows about the 
impact of the victims of sex trafficking.
    Dr. Trouteaud. That is a great question. There are a lot of 
different ways folks think are ideal to combat sex trafficking and the 
broader problem of harms associated with prostitution. One of those 
ideas is a full legalization or a full decriminalization of the sex 
trade. And I think what Commissioner Grosso was trying to get at was 
laudable, noting how individuals who suffer in the sex trade often lack 
access to services, often are victims of violence. I think something 
like 3 percent of women who are murdered in the United States are 
prostitute women murdered by men. Let that sink in for a second--3 
percent of all women murdered in the United States. So there's a real 
concern associated with the harms to women and youth and trans people 
in the life.
    I think to the extent that we can reduce system involvement, to the 
extent that we can reduce harms caused by criminalization or caused by 
the unintended consequences of criminal justice involvement to 
prostituted persons, we should really be trying to do that. We should 
have a services-first approach at all times.
    I think the problem is, when you look at what a policy that 
legalizes sex buying would do, it tends to create an offsetting effect. 
So, by legalizing sex buying, you actually reduce barriers to buying, 
which increases the amount of demand, which necessitates an increase in 
supply. So, while a full decriminalization is laudable in its goal, one 
of the unintended consequences--and we see this playing out 
internationally--one of the unintended consequences is, it so 
dramatically increases demand that it actually draws more vulnerable 
people into the very trade that it's trying to free people from. 
That's, I think, what we have to think really critically about.
    To the extent that we can provide services instead of criminal 
justice involvement to prostituted persons, it's a really darn good 
thing. It's incredibly important because you see the stigma associated 
with it, you see the harms that they face, you see the violence that 
threatens their daily lives and you see what kind of desperation many 
of them are in. We should treat that as a humanitarian crisis. But to 
think that sex buying falls into the same camp, I think, is incorrect, 
and we need a different approach for buyers.
    Ms. Hollabaugh. Thank you, Dr. Trouteaud.
    There is an excellent London School of Economics study from 2012 
that asks that same question, does the legalization of prostitution 
increase sex trafficking, and fully supports what Dr. Trouteaud has 
just shared. I would encourage it to be used for debates.
    I saw another question.
    Questioner. I had a question for Dr. Kara. Well, first, I wanted to 
congratulate that this was shown at the U.N. last weekend, the opening. 
I'm really happy that I was able to see it just fresh off the bat.
    Your character, the young woman with the blond hair who came out of 
foster care that was portrayed--I was wondering, how many people that 
are trafficked are from foster care in the United States? And also, are 
you considering showing your film to foster care homes? I don't know if 
that's too graphic, but if it's a huge, prevalent thing, whether it's 
worth showing to foster care centers.
    Dr. Kara. Very good question. And there is a reason I wrote that 
character, the character of Sara coming out of the foster care system. 
In particular, in the last few years of my research, I kept 
encountering this scenario more and more often, either a young girl 
recruited while she was in foster care or very soon after aging out. In 
particular, because in the last several years there have been more and 
more cuts of those transitional protective nets and transitional 
services.
    And I think one thing in the Frederick Douglass Reauthorization Act 
is to put some of that back. There is funding allocated to assist with 
transitional housing and assistance and care for individuals in and 
coming out of foster care. I just cannot stress how important that is. 
Vulnerability doesn't just happen on the far side of the world in 
developing countries. It certainly happens here and it certainly 
happens in the foster care system.
    There isn't, to my knowledge, a sufficient answer to your question 
on data. In fact, this is one study that I'd really like to do in this 
country is a prevalence estimate of sex trafficking while in or coming 
out of the foster care system, because I think we need to have an 
answer, a very specific answer to that question, if it's a small 
percent or something, I think, probably more substantial than that. And 
that will really start to ring some bells in this country and start 
making us think about what kind of resources and protections need to be 
in place state by state across the country.
    That's a study I'd like to do, and I don't think anyone has really 
done it yet, or done it substantially or nationally to get a sense of 
when you're talking about U.S. domestic teens, citizens who end up as 
victims of sex trafficking, how many of them came out of or were in the 
foster care system when that journey started. I think it's more than 
people realize because I keep coming across these cases, which is why I 
changed that character from the first draft of the script I wrote. In 
the second draft, I changed what her backstory was.
    Amba's [backstory], the Indian girl, was always sort of the same, 
and Mali's was certainly always the same and very, very closely linked 
to one particular young woman I met in Nigeria. But Sara's I changed 
for this exact reason, because that conversation--people don't even 
realize it, let alone have a basis from which to have a conversation 
about the deficiencies that lead to her outcome.
    Ms. Hollabaugh. Foster care, lack of housing--these are issues we 
see coming up very often as indicators of vulnerability, both in the 
United States and the other OSCE-participating States.
    Ms. Eugenio, these indicators of vulnerability, are they the same 
with children who end up in labor trafficking? What are some of the 
similarities and, more importantly, what are some of the interventions 
that you have seen work around the world to prevent trafficking?
    Ms. Eugenio. Thank you, Allison, for that question. The indicators 
of forced labor, or really to forced labor or trafficking or modern 
slavery, tend to kind of differ but in some cases are the same, 
depending on the situation. The movie had various examples of 
indicators of forced labor. Coercion, or being somehow emotionally and 
culturally ingrained that you owe a debt to someone else and that you 
must pay that debt, issues of threats to yourself or to your family--I 
mean, you have situations in this movie about people being held against 
their will.
    When it comes to labor trafficking, those indicators can be a 
little bit more subtle and that makes it even more difficult to address 
the problem because you are talking about situations with somebody's 
wages being withheld. And initially you may think, well, this is just 
an issue of not receiving your wages or your salary. But if your wages 
are being withheld, you do not have the ability to leave your place of 
employment, you do not have the ability to actually seek help. You are, 
for all intents and purposes, in a situation of forced labor.
    The same goes with issues if you're in a vulnerable situation 
because, in the case of Nigerian or African migrants going into Europe 
where you're outside of your home, outside of your culture, you do not 
have access to certain services. You do not have access to certain 
protections that other citizens of those countries will have.
    The interventions differ as well. One of the things that we haven't 
really talked about or touched on here is this issue of prevention. We 
have talked a little bit about identifying victims, trying to provide 
assistance to survivors. And I agree with you that that is where the 
hard work really begins. It's not just rescuing somebody from a 
brothel, but what happens afterwards? How does that person get back to 
standing on their own two feet and building their own lives again?
    But prevention is also very important, and the social systems need 
to be there; education, social protection, whether it is providing 
economic alternatives, ensuring that people have decent work. It's 
important for prevention purposes.
    In the labor front, not the sexual exploitation front, I think that 
this is where the work that the Department of Labor does in conjunction 
with other U.S. Government agencies is very important. You know, we 
have really good wages, and our investigators are the frontline people 
who are there. They're not there to identify victims of trafficking, 
they are there to identify exploitation and abuse. But those are red 
flags and they can coordinate and they can raise awareness about the 
issue and they can, in some cases, refer back to other U.S. Government 
agencies that do have the ability to go in and enforce criminal law.
    I just wanted to put it out there that there are very different 
ways to go about this issue. Prevention is something that we all really 
have to look at and focus on because we don't always want to have to be 
dealing with addressing a problem after it happens. And that's an area 
that requires a little bit more attention.
    Ms. Hollabaugh. Thank you for underscoring the importance in 
particular of prevention. We're seeing a renewed interest in this, a 
renewed need for it in the U.S. Congress.
    And in fact, in the Smith-Bass Frederick Douglass Trafficking 
Prevention and Protection Reauthorization Act, ``prevention'' was added 
this year for just the reasons Ms. Eugenio mentioned, to underscore the 
need for it. And the opening section of the bill is for grant money to 
go to schools so that children will be educated on the indicators of 
human trafficking, and so that their vulnerability will be reduced just 
through knowledge of this person that's offering to buy you all sorts 
of things and be your boyfriend and take you on trips--that this may 
not be as good of a deal as you think it is. Thank you very much for 
that.
    I did see another question, and this will be our last one because 
we are running out of time.
    Questioner. It's another resource--we're going to be hosting a 
congressional briefing on November 2nd sponsored by the Society for the 
Psychological Study of Social Issues and the National Prevention 
Science Coalition to Save Lives, and it's going to be on prevention. 
We're bringing in a number of psychologists and other social scientists 
to talk exactly about prevention, especially at the community level.
    Ms. Hollabaugh. Thank you. It sounds like it will be an excellent 
event. Please feel free to send me the information and I will help you 
circulate it.
    Are there any concluding thoughts from our panelists today?
    Yes?
    Ms. Eugenio. Thank you, Allison. I wanted to share something 
finally with all of you because I think it's also important. This movie 
focused a lot on what was happening in the United States, but it also 
very clearly indicated the connection with what happens in other 
countries having an impact on what happens here. And that is true for a 
lot of the trafficking, forced labor, modern slavery situations that we 
have to deal with; they intertwine.
    And there is a lot of discussion in the United States, and rightly 
so, about how we have to focus on U.S. citizens and U.S. workers. But 
also how preventing abuse and exploitation in other countries actually 
helps us level the playing field for U.S. workers and helps us address 
situations of exploitation in the United States.
    So I once again thank you for the work that you do every day, 
Allison, and that the Commission does, because this broader view of the 
world is important. And it's important to remind ourselves that we're 
interconnected, and that a lot of what is happening in other parts of 
the world is affecting us in the United States, and we need to do more 
as well.
    Thank you.
    Ms. Hollabaugh. Thank you, Ms. Eugenio. I could not have said it 
better myself. We will leave it at that.
    I hope you will join me in thanking our panelists. [Applause.]
    [Whereupon, at 5:22 p.m., the briefing ended.]
 

  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
